<html>
<title> - THE NORTH ATLANTIC TREATY ORGANIZATION, RUSSIA, AND EUROPEAN SECURITY</title>
<body><pre>[Senate Hearing 114-720]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-720
 
                       THE NORTH ATLANTIC TREATY
              ORGANIZATION, RUSSIA, AND EUROPEAN SECURITY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, JULY 7, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-770 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
        


                      COMMITTEE ON ARMED SERVICES
                      

  JOHN McCAIN, Arizona, Chairman         JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                BILL NELSON, Florida
JEFF SESSIONS, Alabama                   CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi             JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire              JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                    KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                     RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                JOE DONNELLY, Indiana
JONI ERNST, Iowa                         MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina              TIM KAINE, Virginia
DAN SULLIVAN, Alaska                     ANGUS S. KING, JR., Maine
MIKE LEE, Utah                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                                     
                                     
                                     
                     Christian D. Brose, Staff Director  
                     
                     Elizabeth L. King, Minority Staff Director
                                     
                                     
                                     
                                     
                                     


             

                                  (ii)

  


                         C O N T E N T S

                             __________

                              July 7, 2016

                                                                   Page

The North Atlantic Treaty Organization, Russia, and European          1
  Security.

Smith, Julianne, Senior Fellow and Director, Strategy and             4
  Statecraft Program, Center for a New American Security, Former 
  Deputy National Security Advisor to Vice President Joe Biden.
Burns, Honorable R. Nicholas, Goodman Professor of Diplomacy and     10
  International Relations, Harvard Kennedy School.
Jones, General James L., USMC (Ret.), Chairman, Brent Scowcroft      11
  Center on International Security, Atlantic Council, and Former 
  National Security Advisor.

                                 (iii)


                       THE NORTH ATLANTIC TREATY



                   ORGANIZATION, RUSSIA, AND EUROPEAN



                                SECURITY

                              ----------                              


                         THURSDAY, JULY 7, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. Senate Armed Services 
Committee meets this morning to receive testimony on the NATO 
[North Atlantic Treaty Organization] alliance, Russia, and 
European security.
    We're grateful to our witnesses for appearing before the 
committee today: Ambassador Nicholas Burns, a distinguished 
member of the faculty at Harvard's Kennedy School of Government 
and former U.S. Permanent Representative to NATO; General James 
Jones, Chairman of the Scowcroft Center on International 
Security at the Atlantic Council--among many senior positions 
he held during his long career in public service, General Jones 
served as Supreme Allied Commander Europe for NATO and 
Commander of U.S. European Command; and Julianne Smith, Senior 
Fellow and Director of the Strategy and Statecraft Program at 
the Center for a New American Security and former Deputy 
National Security Advisor to Vice President Joe Biden.
    Ambassador Burns and General Jones are the authors of the 
Atlantic Council's new report on ``Restoring the Power and 
Purpose of the NATO alliance.'' Ms. Smith served as a member of 
the report's review board. I thank the Atlantic Council and all 
those that contributed to this timely, substantive report.
    Last week marked the 100th anniversary of the start of the 
Battle of the Somme in World War I, 141 days of carnage that 
killed or wounded over one million soldiers. This is a powerful 
reminder of a time fading from memory, yet not all that 
distant, that Europe was a war-torn continent. It's also a 
reminder of how fortunate we are that the United States and our 
allies changed that tragic arc of history at a crucial 
inflection point. We forged the rules-based international order 
out of the ashes of World War II. We are committed, ourselves, 
to human rights, democracy, rule of law, open markets, and 
peaceful settlements of disputes, and we built a NATO alliance 
to protect, defend, and advance a Europe whole, free, and at 
peace.
    Again we stand at a critical inflection point as the shadow 
of war is returned to Europe. The Atlantic Council report 
warns, and I quote, ``The peace, security, and democratic 
stability of Europe can no longer be taken for granted.'' 
Today, the NATO alliance faces the greatest threat to peace and 
security in Europe since the end of the Cold War. Indeed, the 
challenges to our alliance are great: radical Islamic terrorism 
radiating instability across the Middle East, the worst refugee 
crisis since World War II, a weakened European Union, and 
perhaps most significant of all, a revanchist and unrepentant 
Russia willing to use military force to achieve political 
objectives.
    Two years ago, for the first time in seven decades on the 
European continent, Vladimir Putin invaded and annexed the 
territory of a southern--of a sovereign nation by force. 
Unfortunately, since then he has learned from bloody experience 
in Ukraine, and now in Syria, that military adventurism pays, 
that diplomacy can be manipulated to serve his strategic 
ambitions, and that the worst refugee crisis since World War II 
can be weaponized to divide the West and weaken its resolve.
    Two years later, our alliance is still struggling to adjust 
to the scope, scale, and seriousness of the new strategic 
reality we face. Confronted by brazen aggression, the Obama 
administration maintains its refusal to provide Ukraine with 
the lethal assistance it needs to defend itself. Many of our 
NATO allies have failed to reverse declining defense budgets 
and honor their pledge to reach the two percent target within a 
decade. Setting aside targets, the reality is that European 
defense spending is simply not commensurate with the security 
challenges faced by the alliance. Many NATO allies have 
inexplicably been reluctant to make the strategic investments 
in critical military capabilities needed to further alliance 
inoperability and improve readiness.
    That said, there has been important progress. NATO has 
stood up a Rapid Reaction Force, increased air policing and sea 
patrols, expanded training and exercises, and moved more forces 
and equipment east toward the Baltic states, Poland, and the 
Black Sea region. Yet, it concerns me to hear senior European 
officials criticize even these limited steps to provide 
credible deterrence against Russian aggression as, ``saber-
rattling or warmongering.'' Such comments suggest a troubling 
head-in-the-sand mentality that yearns for a speedy return to 
the days of the delusional Russia reset and what General 
Breedlove has called ``hugging the bear.'' Worse, such comments 
fundamentally misrepresent and undermine NATO's recent effort 
to defend itself. At a time of renewed danger, our alliance 
seeks to reaffirm and reinforce a decades-old commitment to 
promote a Europe whole, free, and at peace. That is what we 
must continue to do as we work to ensure the credibility of 
NATO's collective defense commitment in all domains: 
conventional, cyber, hybrid, and nuclear.
    Finally, let me add that a strong NATO is in America's 
national security interests. Nowhere has that been made more 
clear than in Afghanistan, where our allies have sacrificed 
blood and treasure fighting alongside us for 15 years. Our 
shared mission is not over yet. That's why I welcome the 
President's announcement yesterday that the United States will 
retain 8,400 troops in Afghanistan into next year. I believe 
that conditions on the ground warranted retaining the current 
force level of 9,800. I fail to see any strategic rationale for 
the withdrawal of 1,400 U.S. troops while the security 
situation remains, in the President's own word, ``precarious.''
    That said, it's important the United States signaled our 
ongoing commitment to the mission in Afghanistan ahead of the 
NATO summit in Warsaw, this week, where our allies will make 
troop and funding commitments to the Resolute Support mission. 
I believe the commitments our allies make this week will once 
again demonstrate that NATO is a critical force multiplier and 
a vital partner to promote global stability and security.
    I look forward to hearing from our witnesses today, and the 
opportunity to discuss their recommendations for strengthening 
the NATO alliance, reinvigorating U.S. global leadership, and 
meeting our shared challenges.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming the witnesses, thanking them 
not only for their testimony today, but for their service to 
the Nation in so many different ways.
    Thank you very, very much.
    The NATO alliance and our partners are confronted by a 
security landscape that has undergone drastic changes in recent 
years. NATO faces multiple threats to regional stability, 
including ongoing Russian provocations in the east which flout 
international norms; the conflicts in Syria, Iraq, and North 
Africa which continue to destabilize the region and have driven 
a historic number of refugees to flee into NATO countries; and 
the prospect that radicalized citizens of NATO countries may 
export their battlefield training from these conflicts in the 
Middle East back to their home country. In addition, there are 
challenges beyond the military domain, in areas such as 
economic stability, in cyber and energy security. When the NATO 
summit begins in Warsaw tomorrow, all of these issues will be 
discussed at length.
    Two years ago, at the Wales summit, members agreed to 
several important steps in an effort to recalibrate the 
alliance with the new security environment. They approved a 
Readiness Action Plan to enhance the alliance's ability to 
respond quickly to security challenges. They affirmed defense 
spending commitments of two percent of GDP [gross domestic 
product], and agreed that it is not enough just to increase 
spending; investments must also be focused on strategic 
capabilities that strengthen the alliance. In Warsaw, expected 
announcements included enhanced forward presence to the east, 
the declaration of cyber as a domain, and the affirmation of 
NATO allies' and partners' long-term commitment to Afghanistan.
    On that last point, I support the President's decision to 
retain approximately 8,400 United States troops in Afghanistan 
into 2017 to continue training, advising, and assisting the 
Afghan Security Forces and conducting counterterrorism 
operations.
    Yesterday's announcement comes at an important time in this 
year's fighting season. It takes into account the advice of the 
commanders on the ground and gives clarity to our NATO allies 
as their own contributions are discussed at Warsaw this week.
    The issue of deterrence, and what constitutes an effective 
deterrence, will also be discussed in Warsaw. Included in this 
year's Senate-passed National Defense Authorization bill is 
$3.4 billion for the European Reassurance Initiative, a 
fourfold increase over last year's funding. This funding is 
intended to enhance the U.S. military presence and activities 
in Europe and focus United States efforts more intently on 
deterrence measures. In addition, NATO will announce the 
deployment of four battalions to Estonia, Latvia, Lithuania, 
and Poland to enhance forward presence. As both of these 
initiatives move forward, it will be essential to ensure that 
they are integrated so that deterrence measures are amplified 
and not simply duplicated. I will be interested to hear our 
panelists' views on how best to--these integration efforts.
    Thank you again, to our panelists, for their willingness to 
appear this morning. I look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses. I do believe that 
this hearing is a very timely one, given the President and 
Secretary of Defense's departure for Warsaw for a NATO summit. 
I thank the witnesses.
    Ms. Smith, we'll begin with you.

   STATEMENT OF JULIANNE SMITH, SENIOR FELLOW AND DIRECTOR, 
  STRATEGY AND STATECRAFT PROGRAM, CENTER FOR A NEW AMERICAN 
   SECURITY, FORMER DEPUTY NATIONAL SECURITY ADVISOR TO VICE 
                      PRESIDENT JOE BIDEN

    Ms. Smith. Thank you very much. Thank you, Chairman McCain, 
Ranking Member Reed, and members of the committee, for the 
opportunity to testify this morning on the NATO alliance, on 
Russia, on European security.
    As you both noted, the summit, the NATO summit, will start 
tomorrow in Warsaw, Poland, and run over two days. As you also 
know, NATO summits tend not to garner much attention by publics 
on the other side of the Atlantic or even by our public here in 
the United States. To the extent that Americans and Europeans 
notice that a summit's even occurring, what do they see? They 
see red carpets. They see handshaking. They see a lot of 
champagne toasts. They have a hard time understanding how all 
of that will have any impact on their day-to-day lives.
    To the extent that they follow the details of the summit, 
or have in the past, they also hear lots of pledges by our 
European allies to spend more on defense. That has not happened 
over several decades, and they've seen those pledges 
essentially gone unfulfilled. But, I believe that this 
particular summit in Warsaw, the one that starts tomorrow, is 
worth watching and deserves a considerable amount of praise. 
Let me take just a few minutes to explain why.
    In terms of the actual deliverables at the summit, the 
first deliverable is the fact that we're having a summit at 
all. The summit is one of the deliverables. What do I mean by 
that? Well, with Europe buckling under the weight of Brexit, 
the migration crisis, counterterrorism challenges, instability 
in the Middle East, and a resurgent Russia, this summit is a 
very useful and, Senator McCain, you used the word, ``timely'' 
opportunity for the transatlantic partners to come together and 
showcase resolve, solidarity, and unity at a time when, 
frankly, they need it most.
    In regards to the threats that NATO faces east, we've 
already heard some of the ways in which the alliance is going 
to be strengthening its policies and tools to address those 
threats. Most notably in the area of deterrence, the alliance 
will be adding four new multinational brigades--battalions, I'm 
sorry--in the three Baltic states and Poland.
    In regards to the threats that NATO faces in the south, the 
alliance will be making two major decisions. One, it's going to 
increase training and capacity-building inside Iraq, which is 
rare for the alliance. The alliance tends to prefer to do those 
types of things outside of conflict zones. This is an important 
decision. The alliance is going to assume the risk and take on 
these types of missions inside Iraq.
    Two, the alliance is going to announce that it's going to 
be deploying AWACS [Airborne Warning and Control System] as 
part of the anti-ISIS [Islamic State of Iraq and Syria] 
coalition, which is also important, because, frankly, I think 
the alliance has been trying to avoid getting involved in this 
conflict for quite some time.
    As another deliverable, I would note that the alliance is 
taking the rather controversial decision of adding Montenegro, 
its 29th member, to the alliance. This is obviously important 
news for Montenegro, which has worked tirelessly to meet all of 
the criteria for NATO membership, but, more importantly, this 
is a way that the West can send a very strong signal to Moscow 
that sovereign nations have the right to determine freely, or 
choose freely, their associations and alliances.
    There will be other important initiatives at this summit 
announced over the next two days, and we can get into those 
details perhaps later this morning, but, just quickly, I would 
note that the alliance will be reaffirming NATO nuclear policy. 
This is something, frankly, that the alliance has almost 
forgotten about in recent years. That will be put back on the 
agenda. You'll also see some new initiatives in regards to EU 
[European Union]/NATO cooperation, which is important, because 
these are two institutions that have been unable to cooperate 
over several decades. You'll hear more about resilience and 
ways in which the alliance is going to be strengthening the 
toolkit it has to respond to the hybrid tactics that our 
friends in Russia are using. You'll hear some news--not enough 
good news, but some good news--on defense spending, as well.
    But, ultimately, we have to ask ourselves, Is all of this 
enough? I would answer no. After the red carpets are rolled up, 
after all those handshakes and the champagne toasts and the 
praise that NATO deserves for this summit, NATO has to get back 
to work. In particular, I think the alliance needs to turn its 
attention to Libya, which is now commonly described as the 
second-biggest source of instability in the Euro-Atlantic area, 
after Syria. I think the alliance is going to have to ensure 
that those new battalions are reinforced and can be sustained 
over the long term. The alliance is going to have to focus on 
defense spending and ensure that allies are continuing to march 
towards that two percent target. We're also going to have to 
spend some time on Romania and Bulgaria and the Black Sea, a 
region that has received less attention than the Baltic states. 
Finally, we're going to have to look at what other tools NATO 
can develop in cooperation and working with the EU to deal with 
cyberthreats, strategic communications challenges from the 
Russians, and all sorts of other hybrid tactics that they 
regularly use. Above all, we have to ensure that NATO can 
continue to rely on U.S. leadership, which has been a key 
ingredient to the alliance's success over many, many decades.
    In closing, I'd only state that I disagree with those that 
say NATO is obsolete. It is imperfect, but it is also capable 
of innovation, adaptation, and concrete policy initiatives that 
make a real difference in enhancing European security and our 
own security. We'll see plenty of evidence of that over the 
next two days.
    Again, thank you very much for the opportunity. I look 
forward to your question.
    [The prepared statement of Ms. Smith follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
       
    Chairman McCain. Thank you.
    Ambassador Burns.

STATEMENT OF HONORABLE R. NICHOLAS BURNS, GOODMAN PROFESSOR OF 
 DIPLOMACY AND INTERNATIONAL RELATIONS, HARVARD KENNEDY SCHOOL

    Ambassador Burns. Thank you, Mr. Chairman, Senator Reed, 
members of the committee. Thank you for the opportunity to 
testify this morning.
    Twenty-five years ago this autumn, we in NATO believed that 
Europe's historic demons of war and division--and you 
referenced them this morning, Mr. Chairman, in your statement--
we thought they had been vanquished, because communism 
collapsed, Germany was united in NATO, the United--the USSR 
vanished from the scene, and that allowed President George H. 
W. Bush to proclaim a strategic imperative that I think all 
administrations since, Democrat and Republican, have agreed on, 
that Europe is whole, free, and at peace. It was one of the 
most significant foreign policy accomplishments in our history.
    Twenty-five years later, General Jones and I believe that 
Europe and the United States are facing the greatest threat to 
the peace since the end of the Cold War. Specifically, we're 
encountering a dramatically changed and perilous security 
environment in Europe produced by four interlocking challenges. 
The first is Vladimir Putin's aggression, his division of 
Georgia and of Ukraine, his annexation of Crimea, his threats 
to the Baltic states, and his military's harassment of United 
States military forces in international airspace and 
international waters. The second challenge is a dramatically 
weakening and potentially fractured European Union, now 
exacerbated by the possible departure of the United Kingdom. 
The third is the tsunami of violence spreading from the Levant 
in North Africa into Europe, itself. The fourth is uncertain 
and sometimes seemingly unconfident European and American 
leadership in the face of these combined challenges.
    It would be an exaggeration to say that we're returning to 
the Cold War or that our dream of a united, peaceful Europe is 
no longer attainable, but these are daunting risks requiring a 
rededication to one of our most enduring bipartisan objectives, 
a secure, durable, strengthened American link to Europe's 
future and Europe's success. That is why the NATO alliance 
remains so important to the United States. That is why such a 
changed security situation requires a significant and bold 
response by the United States and its NATO allies to Putin and 
the other threats that we mentioned.
    The Atlantic Council report that General Jones and I shared 
makes many recommendations. You've seen them. But, the 
principal recommendation is that NATO should station military 
forces, on a permanent basis, in the Baltic states, in Poland, 
in the Black Sea region, and to have stronger capacity in the 
Arctic region. This will make NATO's strategic deterrence and 
our article 5 commitment to our allies real and unambiguous and 
unyielding to the Russian Government. It's the best way to 
secure the peace in Europe.
    We may need to hold the line against Putin in eastern 
Europe for some time to come, and that is why we must also 
maintain American, European, and Canadian sanctions against 
Putin until he has met all the conditions of the two Minsk 
agreements negotiated with the Ukrainian Government, the 
British, and the French. To let him off the hook, as some 
European leaders are already advocating, would let him get away 
with larceny and aggression not seen in Europe--and you 
referenced this, as well, Mr. Chairman--in 70 years. That is 
also why the United States should extent lethal military 
assistance to Ukraine, so that it has the capacity to defend 
itself against clear and open Russian aggression.
    We need, furthermore, to push our NATO allies to rebuild 
their militaries and spend much more in the--on the--on their 
defense, given this altered strategic environment. It is 
unacceptable that these wealthy countries are nearly all 
punching below their weight. Only five of the 28 NATO allies 
are spending above NATO's minimum of two percent of GDP on 
their national defense. We need, especially, a stronger Germany 
to help lead NATO, and help the United States lead NATO, in 
this new era. We need a stronger United Kingdom, France, Italy, 
Spain, and Poland, to enable NATO meet these new threats.
    My final point, Mr. Chairman, is that our most complex 
challenge may come from within the NATO countries, themselves. 
Our strongest link, of course, is that we are all democracies, 
but many of us, including our own country, are confronting a 
wave of isolationist sentiment and, in some cases, extremism, 
in our domestic political debates. NATO is going to need 
strong, unflinching American leadership to cope with these 
challenges. The next American President will have the 
opportunity, and the obligation, to provide such leadership to 
weather these storms.
    An early NATO Summit in 2017 could confirm the decision to 
keep adequate forces in Afghanistan, to train the militaries of 
Iraq and Tunisia and Jordan, to increase our national defense 
budgets, to maintain the sanctions on Putin, and to provide 
effective strategic deterrence against him. Most importantly, 
the next President must win the battle for public support here 
at home, within the United States. That effort should focus on 
what we know to be true, that our alliances strengthen, and 
they don't weaken, us; that American isolation, on the left and 
the right, is not the answer to these problems; and that NATO 
remains not only relevant, as Julie has said, but essential in 
this changed world where American leadership is so critical and 
so much in demand.
    Thank you very much.
    Chairman McCain. General Jones.

  STATEMENT OF GENERAL JAMES L. JONES, USMC (RET.), CHAIRMAN, 
  BRENT SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC 
         COUNCIL, AND FORMER NATIONAL SECURITY ADVISOR

    General Jones. Mr. Chairman, Senator Reed, members of the 
committee, thank you very much for inviting me to testify, 
along with my colleagues, before this committee on the 
important topic of NATO, Russia, and European security in the 
context of the upcoming NATO Summit in Warsaw.
    I'm honored to work with the Atlantic Council and my 
friend--my friends, Ambassador Burns and Julianne Smith, in 
producing the study ``Restoring the Power and Purpose of the 
NATO Alliance.'' We're pleased to submit this report as the 
official testimony for the record.
    If you--with your permission, I'd like to make a few key 
points in reference to the major challenges facing the alliance 
and the way ahead. But, before I do, however, I'd like to make 
a reference to an issue about which I testified before this 
committee last year, and that's the deplorable treatment of 
refugees of Camp Liberty in Iraq.
    On Monday, July 4th of this year, at 20:35 local time, the 
MEK [Mujahadeen-e-Khalq] at Camp Liberty came under the direct 
fire of 50 missiles and rockets launched by paramilitary forces 
associated with Iran's Quds Force and with the tacit approval 
of the Iraqi Government. This--attacks inflicted severe damage 
upon the residents of the camp, and a number of residents were 
severely injured, about 50. The MEK is continually subjected--
is--has been continually subjected to attacks directed by the 
Iranian regime since their installation at Camp Ashraf. 
Monday's attack is the latest in an ongoing string of assaults 
on the residents at their current residence of Camp Liberty. 
All told, the MEK has been victim to eight attacks and have 
resulted in 140 people killed and over 1400 injured. It's only 
a matter of time, as I said last year, until they come under 
assault once again.
    I previously recommended in testimony that the United 
States Government should adopt a much more compassionate view 
of the MEK and, by extension, a more aggressive posture when it 
comes to ensuring their safety. The United States Government 
took on an explicit obligation in 2003 to protect them while in 
residence, and now, I submit, in captivity, at Camp Liberty. To 
date, the--we have failed them miserably and tragically. 
Fourteen-hundred remaining members of this group are waiting to 
go to Albania today.
    I'd also like to acknowledge the role of the Albanian 
Government in agreeing to accept the residents, and encourage 
the United States Government to do all it can to ensure the 
residents' swift and complete transfer to Albanian soil.
    Mr. Chairman, the world and Europe face deep instability, 
the likes of which we have not seen in decades, which impacts 
our interests and the interests of our allies. Instability is 
the implacable enemy of peace and development, and directly 
threatens the interests of the United States and our allies. 
Europe faces the alarming prospect of real retreat and 
unraveling as--and, as we point out in this report, NATO faces 
its greatest security threats since the end of the Cold War.
    There is today a--clear differences, in my view, in how the 
eastern European nations and the western European nations view 
the Russian threat. This undercuts a longstanding bipartisan 
United States goal of a united Europe whole and free. The 
security order in the Middle East is unraveling, which affects 
not only the Middle East, but also the United States and our 
allies in Europe. Sixty-five million people are now displaced 
by instability, perhaps the most in history. The move of 
migration towards Europe has deeply destabilized our European 
allies, and Africa could be right behind.
    Retreat and isolationism from the world, however, do not 
suit U.S. interests or enhance American security, prosperity, 
and our values. In a world of rising instability, U.S.-led 
alliances enhances our security, bolsters global stability, and 
enhances U.S. influence globally. Vacuums are created when 
leadership--U.S. leadership is not present and is not visible.
    The first point I'd like to make is that NATO is a force 
multiplier for United States, not a burden. Our 27 NATO allies 
offer American forward basing, which allows us to better fight 
enemies, like ISIS, and deter adversaries, like the new Russia, 
and to meet shared challenges. Twenty-eight countries acting as 
one is a powerful alliance.
    Allies are instrumental to global security and have helped 
carry the security burden in places like Iraq and Afghanistan. 
Nearly 1,000 European and Canadian troops paid the ultimate 
price in Afghanistan. Our allies support us politically at the 
U.N. [United Nations] and through other political and economic 
organizations and coalitions.
    NATO is also an anchor of stability. That is priceless in a 
world of instability. History clearly shows it is far less 
costly in blood and treasure to invest in maintaining Europe's 
peace than coming to Europeans' rescue after the outbreak of 
conflict, as we did in World War I and World War II.
    There is a need for greater U.S. leadership in NATO. Over 
the last two administrations, the U.S. has retreated 
considerably from its historic leadership role within the 
alliance. It started in the Bush administration, and continues 
today. NATO functions best when the United States provides 
leadership. But, what does U.S. leadership mean? It means 
American officials make the case for NATO and do not denigrate 
our allies. Some are questioning the relevance of our most 
important security alliance, which is NATO. That's not vision 
and leadership. It's blindness and abdication, and it places 
America at risk. We must rally our allies to meet the most 
urgent threats at the doorstep: ISIL [Islamic State of Iraq and 
the Levant], Russia, refugees, the radical spread of 
fundamentalism, and the like. But, we must also position the 
alliance to address emerging threats before they become 
emergencies. This will require a new type of NATO. American 
leadership is important to convince our allies to take on a 
greater share of the security burden. We have a right to expect 
that our allies should do more, or at least to live up to their 
commitments that they've previously made, such as the two 
percent for--of their GDP [gross domestic product] for defense 
spending, agreed upon in 2002 at the Prague summit.
    In a world of instability and hybrid threats, the United 
States must put forward a vision for a proactive NATO. NATO 
cannot be reactive in the 21st century. NATO should be active 
in forming partnerships and building security capacity in 
Africa and the Middle East. We need a stronger NATO/EU 
[European Union] relationship in the face of terrorists and 
hybrid threats. There is a need for NATO to take measures to 
enhance societal resilience, and NATO should consider how 
nonmilitary measures can affect security--for example, 
sanctions--and serve as important tools for influence, like 
energy security and cybersecurity, as well.
    Mr. Chairman, the North Atlantic Treaty Organization is in 
a state of flux, but I'm confident that, with American 
leadership and persuasion, that, when you look at the world 
that we face, that we can shape this alliance, and we can make 
it--we can transform it into a 21st-century reality that will 
enhance our collective security.
    Thank you.
    Chairman McCain. Thank you, General. Thank you for bringing 
this--to the attention of the committee this latest attack on 
Camp Liberty. It is a compelling argument to get those people 
out of there as quickly as possible. Clearly we have failed in 
our commitment to them.
    We need to get your opinion, the three witnesses, on the 
President's decision, instead of withdrawing down to what was 
once described as embassy-centric forces, where now the 
President has decided to have 8,400 troops remaining in 
Afghanistan. I don't see the rationale for withdrawing 1,400. I 
know for a fact that the military advice was to maintain 9,800. 
But, it's better than the--what had been planned and stated 
plans by the President.
    We'll begin with you, Ms. Smith, on this latest iteration 
of our commitment in Afghanistan.
    Ms. Smith. Thank you, Mr. Chairman.
    I support the decision to maintain higher troop levels 
inside Afghanistan. I am also in support of your personal view, 
that that number should be as high as possible and reflect the 
advice of our military commanders.
    I look at it through an allied lens. I know from past 
experience, in my position working NATO issues inside the 
Pentagon, that, should the United States decide to leave, we 
would then see a rapid departure of all of our allies. The 
truth of the matter is that they have sacrificed a great deal 
and contributed considerably to the Afghan mission through 
many, many years; but the reality is that they cannot make 
those contributions without the support of the United States, 
without our enablers, the lift we provide, the medevac, the 
list goes on and on. So, I am glad to see that the number will 
stay higher than inspected. I wish it were a little higher. 
But, I am also glad because of the impact it will have on our 
allies that are on the ground with us in Afghanistan.
    Chairman McCain. Ambassador Burns.
    Ambassador Burns. Mr. Chairman, I agree. I support the 
President's decision, but I also agree with you and Julie Smith 
that it would have been preferable to keep the number where the 
military wanted the number, at 9800. I was at NATO 
headquarters, visiting, ten days ago, and it was clear, in my 
conversations with the Secretary General and others, that NATO 
wants to stay, but they need the United States to stay and to 
lead. This will allow NATO to stay.
    I would just conclude by saying that General Jones and I 
were both at NATO--Jim, as SACEUR [Supreme Allied Commander 
Europe], and I was Ambassador--when we deployed NATO to 
Afghanistan in August 2003. We didn't realize how long a 
mission it would be. But, looking at the security situation and 
the threat from the Taliban, al Qaeda, and the Islamic State in 
Afghanistan, and looking at, I think, some of the good measures 
of the current Afghan Government, we have an obligation to stay 
and help them succeed.
    Chairman McCain. Additionally, General Jones, as you know, 
in June there was a change in the rules of engagement, which 
previously had prohibited attacks on the Taliban, which is 
beyond bizarre. But, I'm glad that we have, now, that 
capability. Your comment?
    General Jones. Mr. Chairman, I support the recommendations 
of the Chairman of the Joint Chiefs and the combatant 
commanders and the whatever. I do not know what they 
recommended, but I--I'm glad to see we're leaving a substantive 
force there.
    I do think that President Ghani deserves our support. I 
think he has the right intellectual and sense of mission, in 
terms of what needs to be achieved in Afghanistan. The military 
piece is one, for sure, but the other is to do everything we 
can to help jumpstart the economy and show the Afghan people 
that there is a better future for them and their children. I 
think the third element is, obviously, governance and rule of 
law that the Afghan people need to see is moving in the right 
direction. So, it's--combination of those three things that I 
think will turn Afghanistan in the right direction.
    All of us are continuously, for years, disappointed that 
our NATO allies haven't reached their two percent target, but 
it's also a myth that it continues to be conveyed that the U.S. 
accounts for about three-fourths of NATO funding. But, the 
Washington Post pointed out, on 30 March, that U.S. contributes 
22 percent.
    So, I guess my question, beginning you--again with you, Ms. 
Smith, is that--Mr. Trump has said, ``NATO is obsolete. It's 
extremely expensive for the United States.'' Do you believe 
that NATO is obsolete? Obviously the--could you say, briefly, 
the consequences of our withdrawing for NATO or a dissolution 
of NATO?
    Ms. Smith. I'm not someone who believes that the alliance 
is obsolete. I think it has its flaws, and I think defense 
spending will continue to be a challenge. I would note that in 
2015, last year, 16 allies spent more on defense than they had 
the year prior, and next year 20 of the 29 allies will spend 
more. Is it enough? No, it's not enough. We need to keep 
pushing them towards two percent. I would note that some 
allies, though, spend less than two percent, countries like 
Norway that contribute a great deal to the missions that we 
conduct around the world.
    What would happen if the U.S. left the alliance? I think it 
would collapse. I think U.S. leadership is absolutely critical. 
I think this alliance serves our interests. It gives us very 
capable partners that have assets, that have capabilities, that 
have the will to act. They stand shoulder-to-shoulder with the 
United States to face aggression to the alliance's east, to its 
south. I think, particularly in light of Brexit, assuming it 
happens, the NATO alliance will be more important than ever.
    Ambassador Burns. Mr. Chairman, I think the United States 
provides 22 percent of the direct costs of NATO, as that 
Washington Post report indicated. There's a second figure. The 
United States defense spending is about 73 percent of all 
defense spending in Europe. So, there are different ways of 
looking at this. But, direct cost to Europe is 22 percent.
    The key country in the debate about burden-sharing is going 
to be Germany. Chancellor Merkel, who I think has been a great 
leader and a great friend of the United States, said, last 
Wednesday, that she hoped Germany would be able to get to two 
percent. It was the most significant statement that we've heard 
from a German leader recently. She's not getting much help from 
her coalition partners, but, if she can be returned--and we 
don't know if that's to be the case--if Germany could step up--
in the recent trends that Julie Smith has indicated, 20 of the 
allies have increased--have at least stopped cutting, and have 
modest increases. We need to push the Europeans in that 
direction.
    Chairman McCain. So, you don't believe that NATO is 
obsolete?
    Ambassador Burns. I do not believe that NATO is obsolete, 
Mr. Chairman. I would say this. I think that Mr. Trump's 
comments, his consistent denigration of NATO and his consistent 
praise of Vladimir Putin, are completely misguided. I think 
he's already done a lot of damage to the alliance in 
threatening, implicitly, to walk out, by saying that NATO is 
obsolete and we shouldn't commit ourselves to it. I--the 
number-one strategic advantage we have over Russia and China is 
that we have alliances in Europe and Asia, and the Russians and 
Chinese do not. So, we should build those alliances.
    Chairman McCain. General Jones?
    General Jones. Mr. Chairman, I don't believe NATO is 
obsolete, but I do think it has been neglected a little bit in 
the--as I've mentioned in my remarks, that the absence of 
dedicated, visible leadership by the United States is 
absolutely essential to make a 28-country alliance work.
    For example, in the aftermath of Russia's invasion of 
Crimea, in portions of the Ukraine, there was no emergency 
meeting of the North Atlantic Council [NAC] called for by the 
United States. I find that to be incredible. That is clearly in 
the backyard of the alliance. I think there should have been an 
emergency meeting of the NAC, as would--you would have expected 
during the Cold War.
    Many NATO nations are participating in the NATO ISIL 
coalition in meaningful ways, but, as of now, the mission is 
taken through a U.S.-led coalition, and there's disagreement in 
the alliance about whether NATO should adopt a more formal 
role. I believe NATO should first develop a strategy for 
combating ISIL. NATO taking over command and control of the 
coalition will be much more effective--a much more effective 
use of resources. But, some allies may resist this move, for 
various reasons. But, again, American leadership, properly 
articulated, can convince them otherwise. I think that this is 
a mission that Europe should respond to, as well as us.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    Let me once again commend you all for the report that the 
Atlantic Council did. It was very thorough and very thoughtful 
and, I think the word continues to pop up, ``timely.'' So, 
thank you very much.
    General Jones, one of the recommendations was a permanent 
stationing of NATO forces in the Baltic. The alternative, and 
the one that seems to be being pursued at the moment, is a 
rotational force, where there would be a presence, but it 
would--battalions would come in and come out. Can you give an 
indication of what's the advantage of a permanent, versus 
rotational, force?
    General Jones. Well, I think the permanent forces are 
always a little bit more expensive. I think there are really 
two fronts that we should consider. One is the Baltics, and the 
second one is the Black Sea.
    I visited the--Romania recently. I was very pleased to 
discover that 700 U.S. marines were training on some bases that 
we established back in 2006. That was heartwarming; 
heartwarming to the Romanians, I can assure you. But, I think 
if the alliance decides a permanent basing is what's required, 
then I would absolutely support that. But, I--clearly, there 
has to be some presence that acts as a deterrence to Russian 
goals.
    Senator Reed. Yeah.
    Ambassador Burns, your comments?
    Ambassador Burns. We support permanent stationing, because 
it would provide much more effective strategic deterrence 
against Putin. He needs to know that NATO is going to defend 
those countries--they're members of NATO--that article 5 will 
be respected. A permanent basing in the Baltics, in Poland, in 
my judgment, would be a much stronger warning to Putin than 
these persistent rotations that the NATO alliance will be 
announcing in the next 48 hours.
    Senator Reed. To every action, there's an opposite and 
equal reaction. That's physics as well as, sometimes, politics. 
So, would there be a different reaction to the Russians to a 
permanent, rather than rotational, force base?
    Ambassador Burns. In my view, Putin would take us more 
seriously if we deployed on a permanent basis, if we had 
installations that were permanent, if we had some capacity to 
defend these countries. We're not going to put, in the Baltic 
states and Poland, the number of troops that Putin has across 
the Narva River or across--in the western part of Russia. But, 
it has to be strong enough to get his attention, and that 
allows us to deal with him on a much more solid basis.
    Senator Reed. Ms. Smith, your comments?
    Ms. Smith. I agree with Ambassador Burns. I believe that 
having a permanent presence would serve as a stronger deterrent 
to Russian aggression. I think that Putin knows that these 
measures, particularly the United States measures, are 
temporary, and there's some question about their sustainment, 
from a budgetary standpoint, but just in the sheer logistical 
perspective, as well. I think, by putting permanent presence 
into the region, we do send a very strong signal to Moscow.
    Now, that said, will the Russians overreact? Will they 
complain? Absolutely. But, they're going to do that--they're 
already doing that in regards to the rotational presence. I 
can't imagine that we'd see that much of a difference. They're 
complaining about Montenegro joining the alliance. I mean, the 
list of complaints is never-ending.
    I feel like we've given Russia ample opportunity to take 
the so-called ``exit ramp'' over the last two years. He has 
refused to do so. I think now we need to do what we view 
necessary to ensure that we can defend the Baltics, should 
anything go terribly awry.
    Senator Reed. As we contemplate, and, in fact, put into 
effect, some of these provisions, or more constantly, the 
permanent or rotational force in the Baltic, talking--General 
Jones's suggestion of having some operations--coordinated 
operations in the Black Sea, my sense--or just--ask you--we 
also have to maintain sort of a communications channel with 
Russia, because one problem would be an inadvertent escalation, 
misreading what they're doing, and they misreading us. Is that 
something that you would also see as critical to--as we build 
up, maintaining, somehow, this effective channel of 
communication?
    Ms. Smith. Absolutely. Along with some of my colleagues, I 
ran a war game earlier this year at the Center for New American 
Security, called Assured Resolve, and we looked at this 
question of potential Russian aggression in the Baltic states, 
in the Nordic-Baltic region. I think the potential for a 
seemingly small incident to spiral out of control is 
considerable. Because of that, I think we do have to ensure 
that we have just a basic line of communication open with the 
Russians at all times so that we can work through a potential 
crisis. As you well know, they regularly, for example, fly 
jets, they've turned their transponders off, we've had a couple 
of near misses. Let's say one of those jets were to collide 
with a commercial airliner. We would immediately need to work 
that through various channels we have with the Russians.
    So, yes, we have to work with them, we have to engage with 
them, clearly on Syria, as well, given the role that they play 
and the relationship they have, sadly, with President Assad. 
There are other challenges where we're going to need their 
cooperation.
    So, it's challenging. I do think we can do both. I think we 
can build out deterrence and have a stronger deterrent inside 
central and eastern Europe, but I also think that we can work 
with them when it's in our direct interests.
    Senator Reed. Very brief comments, Ambassador and General, 
if you have them.
    Ambassador Burns. Senator Reed, the bumper sticker from--
that we're going to hear in the next 48 hours from NATO is 
going to be ``Deterrence and Dialogue with Russia.'' We ought 
to have both. I argued, in my trip to Europe, when we presented 
this report in Berlin and Brussels, that deterrence has to be 
clear and strong, and that will allow a more effective 
dialogue; we'll be taken more seriously. So, yes, to keep the 
channels open. Secretary Kerry talks to Minister Lavrov a lot.
    Senator Reed. A lot.
    Ambassador Burns. Many times a week. But, the Russians have 
to reciprocate. What Julie has pointed out, their egregious 
behavior towards our military, that's obviously something 
that's got to be brought up in that dialogue.
    Senator Reed. General Jones, any comments, very quickly?
    General Jones. Just a brief comment to say that--following 
Ambassador Burns's point, that deterrence is very important. I 
think some in western--in the western part of Europe are more 
interested in dialogue and less in deterrence. But, if you go 
to eastern Europe, they're more interested in deterrence----
    Senator Reed. Than dialogue.
    General Jones.--and dialogue. I think we need to focus--I 
mean, this is, after all, a great military alliance. I think 
the deterrence piece has to be--and it doesn't have to be just 
military deterrence. I mean, sanctions are important. economic 
pressures are important. We have all kinds of things that we 
can do, that we should do collectively.
    Senator Reed. Thank you very much.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Jones, it's--in light of what's happened recently 
with our action with--in legislation that's being passed and 
proposed with Puerto Rico, I think it's appropriate to bring 
up--it's hard for me to believe that it's been 16 years since 
we fought, and lost, the battle of Vieques. I think it might 
have some--be worth revisiting today. With all the problems 
that they have there, I remember so well, right here in this 
room, with Governor Rossello, from Puerto Rico, here, talking 
about the fact that they were going to be closing the range. 
It's--and we were bluffing when we said that the Roosevelt 
Roads would be closed. Of course, obviously, its primary 
purpose was to support the live range. You remember that?
    General Jones. I remember it very well.
    Senator Inhofe. Do you remember also the statement you made 
when you were the Commandant of the Marine Corps, and you said, 
``Vieques provides integrated live-fire training critical to 
our readiness, and the failure to provide for live--for 
adequate live-fire training for our naval forces for forward 
deployment will place these forces in an unacceptable--
unacceptable--high risk. Vieques must not be closed,'' Remember 
that?
    General Jones. Yes, sir.
    Senator Inhofe. Now that the time has gone by, I know 
there--there was a concern for the training that we had prior 
to going into Kosovo. A lot of that training, the proper 
training, could have taken place, but didn't. I recall also the 
incident where--in Kuwait, when we dropped, I think, five--
three 500---bombs off-target. That's the kind of training that 
maybe could have been precluded in the training in Vieques. Do 
you agree with that?
    General Jones. Yes, sir.
    Senator Inhofe. Well, the--I remember, after that, 
personally going to a number of places, looking for that type 
of training--Cape Wrath, in northern Scotland, Capo Teulada, in 
Sardegna, and about 15 other areas.
    Now, the point that I'm bringing up is that we tried--we 
looked for comparable training; and, to my knowledge, we still, 
today, don't have the kind of training that we needed at that 
time. Do you think that the training that we're getting today 
at the various installations, instead of having it all unified 
in one place like we did in Vieques, is just as adequate as if 
we still had Vieques?
    General Jones. I think the Vieques range was beneficial for 
not only the variety of training that we had, but also because 
it was on United States soil and there were far fewer caveats 
and restrictions. I thought it was a national asset. We--at the 
time, we did not--we were not able to find other areas quite 
to--quite like Vieques. But, the decision was made to cease 
training there. It's hard to say what, exactly, the 
consequences of that decision were, but we certainly lost a 
very valuable training base.
    Senator Inhofe. Well, I've been talking to a number of 
people there, who were on our side----
    General Jones. Correct.
    Senator Inhofe.--at that time, who say it could come back. 
We'll see what happens.
    Ambassador Burns, I want to compliment you on the very 
strong language you used in your opening statement concerning 
what has happened over in the Ukraine. I and some of the others 
were over there during their parliamentary elections, where, 
for the first time in 96 years, they don't have one Communist 
on their Parliament. That's due to their allegiance to the West 
and to us. Then, of course, when Putin went in and started 
killing those people, our--what is your idea of our response at 
that time?
    Ambassador Burns. Well, I think we were--President Obama 
was certainly right to impose economic sanctions and to 
encourage the Europeans to do the same. I'm concerned, Senator, 
on my recent trip to Europe, week before last, that there are 
many European leaders--President Hollande, the Prime Minister 
of Italy, the Foreign Minister of Germany--who are now talking 
about getting to the end of those sanctions before Putin has 
met the letter of the two Minsk agreements that he agreed to in 
2014, that he would remove his--that all forces--foreign forces 
would be removed, mercenaries removed, and the OSCE could 
deploy along the Russian-Ukrainian border. He's not--met none 
of those conditions.
    So, there's going to be a very important discussion, slash, 
debate between the United States and Europe in December of this 
year, when the European Union has to look at whether those 
sanctions apply again. I think President Obama has been right 
to insist on those sanctions. In my testimony, I said that, in 
addition to sanctions, I certainly support lethal military 
assistance----
    Senator Inhofe. Right.
    Ambassador Burns.--to Ukraine so that it can defend itself. 
These are defensive weapons that people have been talking 
about, and they----
    Senator Inhofe. Well----
    Ambassador Burns.--they deserve that right.
    Senator Inhofe. Yeah. Well, my feeling was, our response 
was totally inadequate. But, in our current defense 
authorization bill, as you're probably aware--as I'm sure 
you're aware--we are offering lethal assistance--defense 
assistance to Ukraine. I assume that you support that.
    Ambassador Burns. I do.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Ambassador Burns, you noted in your testimony that there 
are a number of very significant challenges facing NATO, but 
you saw the--one of the most significant, if not the most 
significant, is coming from within NATO itself, and that is 
this trend, what--I would call it--describe a trend toward 
isolationism, exemplified probably by Brexit and some comments 
made by presidential candidates. How would you counter this 
trend toward isolationism?
    Ambassador Burns. Well, that's where American leadership of 
the alliance is so important. We are the natural leader. We're 
the strongest country. The Europeans look towards us for 
leadership. As I said, to have one of our presidential 
candidates effectively denigrate the alliance, itself, threaten 
to walk away, I think is deeply damaging to the--to American 
leadership today, as it would be in the future.
    Secondly, there's a lot of concern at the rightwing 
nationalist parties in France, in the Netherlands, in Germany, 
in Greece, who are arguing for isolationism, themselves, to 
pull back from European commitments. As we said in the last 
answer to Senator Inhofe, the fact that so many European 
politicians are now suggesting that it's time to end the 
sanctions on Russia, it's time to get back to business as 
usual--the United States can't cure all the ills of NATO. This 
is a debating society. We have to be convincing in our 
arguments. But, the American voice is very important. I'm sure 
that President Obama will be putting that voice forward this 
weekend in Warsaw. But, the next President is going to have a 
major opportunity to lead the alliance. As I suggested in my 
remarks, on Afghanistan, keeping the troops there, on defense 
spending, and on sanctions against Putin, there's an early 2017 
agenda that we need to lead, in the United States, no matter 
who is elected President.
    Senator Hirono. To the other two panelists, all--well, all 
three of you have said that U.S. leadership is very critical to 
the strength of NATO. Are there other very specific actions 
that the United States or the President, himself or herself, 
should be exhibiting, diplomacy, economically, militarily, to 
show U.S. leadership? Very specific actions that we can take 
to----
    Ms. Smith. Yes.
    Senator Hirono.--show that leadership?
    Ms. Smith. I think the next President should see if he or 
she could convene a summit fairly early on in his or her 
tenure. I think a summit of NATO leaders, possibly in 
cooperation with EU leaders, to bring wider Europe together 
would be wise.
    I think we have to be present more inside Europe. That will 
require more trips, more deploying members of the Cabinet, 
ensuring that we're present, that we're putting forward fresh 
ideas, that we're challenging the alliance, that we're asking 
them for leadership specifically with diplomatic initiatives, 
with military investments, with economic investments that they 
can make in the Middle East. Europe is going to be distracted 
for the better part of the next two years because of Brexit, 
again, assuming that that moves forward. But, I think the 
United States is going to have to push the European continent 
to lift its head up, focus simultaneously on the crisis at 
home, but also help us address the instability across the 
Middle East and North Africa, where it does have relationships 
that matter, assets that can contribute, and a lot of 
diplomatic heft that could be of use to the transatlantic 
partners, more broadly.
    Senator Hirono. General Jones, did you want to add anything 
to this?
    General Jones. I do believe that NATO has to become a more 
agile organization, and it has to become more responsive the 
needs that are being--the threats that are coming our way, 
collectively.
    If what we achieve is to reinvent NATO as a 20th-century 
defensive, reactive organization that doesn't do anything until 
it's too late, and then you have no choice but to fight a major 
war, then I think that NATO will be less useful. On the other 
hand, if the United States chooses to leave the alliance and 
convince our allies that we have--that 28 sovereign countries, 
working with the Arabs, in particular, who show signs of 
wanting to develop a NATO-like organization, we can do an awful 
lot to prevent future wars coming from different parts of the 
world, notably Africa and the Middle East.
    So, I think NATO has to be more proactive. It has to be--
the mission has to be to fight and win, if necessary, but also 
to prevent future conflicts. You can do that with 28 countries 
acting as one.
    Senator Hirono. I think all of you mentioned that there 
should be a permanent stationing of our troops. Is this going 
to be a subject of discussion for this Warsaw summit that's 
going on?
    General Jones. I think it will be, yeah.
    Ambassador Burns. I think it's already clear, from the 
Defense Minister's meeting two weeks ago, that NATO is likely 
to announce, on Saturday, that it will deploy----
    Senator Hirono. Yes.
    Ambassador Burns.--rotational forces.
    Senator Hirono. Right.
    Ambassador Burns. It won't meet that permanent basis. The 
alliance operates on consensus, so all 28 allies have to agree. 
There were many countries who wanted permanent stationing, as 
General Jones has said, mainly the countries in eastern Europe. 
Some of the west European countries disagreed. So, it would be 
my hope that we could convince the allies to move towards 
permanent stationing in the next few years.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank all of you for being here.
    I wanted to follow up. General Jones, you had mentioned 
that NATO should take a more aggressive leadership role. I'd 
like to get to the question of what NATO's role should be, more 
specifically, with regard to the fight against ISIS. So, you 
talked, General Jones, about NATO developing a strategy--an 
ISIL strategy. Then I know that, in the Warsaw summit, they're 
going to deploy AWACS, they're also going to put some training 
forces into Iraq. But, what greater role could NATO play, here, 
because--to address ISIL? As I think about a NATO member--for 
example, Turkey--with what just happened in Istanbul and what 
needs to happen, and the operations right now on the Manbij 
Pocket there along the 90 kilometers along the Turkey border, 
where it's been a--obviously, a place where refugees have gone 
back and forth, and also, as we know, fighters--foreign 
fighters have gone back and forth, which has been very 
significant. I'd love to hear from each of you, Where do you 
think, in the ideal, NATO's role could be, along with--combined 
with American leadership? What should our leadership role be in 
encouraging NATO and the Arab nations to join together so that 
we can more effectively defeat ISIS?
    General Jones. Senator, I think that NATO has the capacity 
to be very, very influential in helping Arab countries form 
their own version of NATO, for example. I think there's--the 
logic would indicate that that would be a natural mission.
    First--the first obligation for NATO is to respond to its 
members' needs, and, where they feel threatened, that we act as 
one and we help in any way we can. We've done that several 
times, particularly with Turkey. I think we should continue to 
support our membership.
    But, beyond that, if we really want to avoid a human 
disaster--another human disaster, perhaps even bigger, I think 
proactive engagement in different countries in Africa, North 
Africa in particular, but also sub-Saharan Africa, to help them 
form security measures that are--that enable them to defend 
their borders and to protect themselves, share intelligence, 
and collectively band together with like-minded nations to show 
ISIL-like organizations that they have no future and they have 
no hope. That involves training, it involves all kinds of 
development of border security, national security forces, and 
the deployment, I think, of NATO forces in the Mediterranean. 
For instance, we have unparalleled naval capabilities, and I 
think we need much more cohesion within the alliance to project 
that kind of sentiment, that NATO is not simply coming in to 
invade or to cause more problems, but to actually prevent 
problems from happening.
    So, it's a whole litany of things that I think NATO--the 
new NATO, in the 21st century, can and should take on.
    Senator Ayotte. Ambassador?
    Ambassador Burns. Senator, I think you're right to focus on 
Turkey and the fight against the Islamic State in Iraq and 
Syria. The Turks want a closer relationship with us on issues 
like refugees, possible safe havens in the future, should that 
be possible, should this or a future administration want to go 
in that direction. We are also going to need NATO attention in 
Libya, where the Islamic State, as you well know, has an 
outpost. The allies are going to be critical.
    The terrorist attacks in Europe have been a huge wake-up 
call for the European publics and their political leaders, so I 
think we're getting much more receptivity on counterterrorism, 
intelligence cooperation, judicial cooperation from the 
Europeans. Where I would want to see NATO act together against 
the Islamic State--I don't think it's going to be politically 
possible to have everybody, 28 countries, agree on a NATO 
military mission. That would help to--us to shoulder the 
responsibility. It would ask the Europeans to do more. They 
should do more, both in North Africa and the Levant. But, I 
don't think it's going to be politically possible to have NATO 
act as one, militarily, so we'll have to create these 
coalitions of NATO members. That's another reason why NATO is 
so valuable to us. Because of our joint training, we're able to 
work together, even in smaller coalitions.
    Senator Ayotte. Ms. Smith?
    Ms. Smith. I would love to see NATO get more engaged in the 
counter-ISIL coalition, in general, because I think it brings a 
great deal of international legitimacy. I think NATO has just 
incredible command-and-control assets that would be very 
useful. NATO also has an array of partners in the neighborhood, 
in the region, that it could very easily work with, as it did 
in its Libya operations, some time ago.
    I am with Ambassador Burns. I think it is unlikely, in the 
short term. The debate is changing, but I don't see any major 
muscle movements in that regard, for a couple of reasons. One, 
Europe has about two million soldiers, and there are estimates 
that about five percent of them are actually deployable. So, 
there's the sheer logistics of getting there, that some of them 
literally don't have the forces to send and don't have the 
ability, if they do have the forces, to get them there. I mean, 
there are real capability challenges.
    Two, you hear from Europeans, oftentimes, this argument 
that the NATO brand is too negative, that NATO's not welcome in 
the region. There's this mythology, in my mind, that NATO 
getting engaged more aggressively in the counter-ISIL mission 
would not be helpful. We're up against that debate. I think we 
could have that debate and work through it, but it is there, 
and it comes up quite frequently.
    Then, also, I would note that NATO, as an institution, 
always looks for a request to get engaged. You find NATO 
members saying, ``Well, we're--the phone's not ringing,'' you 
know, ``We are not--we haven't been asked to get engaged,'' 
which is a little bit of a sad excuse. But, they do wait to be 
called upon to assist. They're probably hoping--well, not 
hoping, actually, to be truthful--that they would have a formal 
request come from Iraq, say, that they want NATO to take 
ownership of this mission, or a call from the United States, 
which has not come, either.
    Senator Ayotte. So, I know my time is up, but couldn't we 
call this----
    Ms. Smith. Of course.
    Senator Ayotte.--and say----
    Ms. Smith. Yes.
    Senator Ayotte.--"Look at what's happened--Paris, 
Brussels''----
    Ms. Smith. We could.
    Senator Ayotte.--"Istanbul.''
    Ms. Smith. Yeah.
    Senator Ayotte. This is about all of us.
    Ms. Smith. This is back to the question about U.S. 
leadership. We should be asking those questions, absolutely.
    Senator Ayotte. Right.
    Thank you.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses.
    To preface my first question, the estimate is that, at any 
point in time, there's about four million Americans who are 
either living in Europe or traveling in Europe, including 
70,000 servicemembers stationed there. In your professional 
opinion, if the U.S. were to eliminate or dramatically reduce 
its support for NATO, what would the effect of that be on the 
risk of terrorist attacks in Europe?
    General Jones. I think any diminution of American presence 
and leadership in Europe would cause an escalation and a 
probability of more terrorist attacks.
    Senator Kaine. I'd like ask the other witnesses to answer 
the same question.
    Ambassador Burns. The Europeans depend, in large part--and 
we depend on them--for counterterrorism information, for 
intelligence-sharing, for all the things that go into that 
battle against terrorist groups. It doesn't all take place at 
NATO, but NATO's a big part of it. It's also the symbolic 
presence of the United States in Europe. So, it would be very 
detrimental.
    Senator Kaine. Ms. Smith?
    Ms. Smith. Yeah, I would agree, absolutely, with both of my 
colleagues. I think the work that we do with our European 
allies, particularly in the area of law enforcement and 
intelligence-sharing, when it comes to addressing the terrorist 
threat inside Europe, it's just indispensable. I would hate to 
see that go away. As Ambassador Burns noted, it's not all 
conducted inside NATO, but there is a critical part of it 
that's inside the NATO alliance.
    Senator Kaine. It's important to remember that the effect 
on Europe, which is very serious, and we should take it very 
seriously, is also an effect on four million Americans who are 
in Europe every day, including 70,000 servicemembers.
    Second, in your professional opinion, what would the effect 
on Russian behavior be if the United States dramatically 
reduced or eliminated its support for NATO?
    General Jones. It is Mr. Putin's ambition to weaken NATO, 
wherever he possibly can. I say that because I've heard him say 
it. I think anything that--anything that causes the United 
States to retreat from its presence in Europe is a good day for 
the Russian President.
    Senator Kaine. Ambassador Burns?
    Ambassador Burns. There would be no strategic deterrence to 
Putin if NATO disappeared. So, from a conventional standpoint 
and a nuclear-weapons standpoint, NATO provides the defense of 
the European continent for its members against this leader, who 
has now divided several European countries along his southern 
and western border. So, it would be a disaster for Europe and 
the United States.
    Senator Kaine. Ms. Smith?
    Ms. Smith. I think that's right. I think we'd see more 
military probing at sea, in the air, all over the Nordic-Baltic 
region and beyond. I think we'd see additional acts of 
intimidation, greater support for populist parties and 
candidates across Europe directly by the Russians. If he 
perceives--he already does, but if he perceives that NATO and 
the EU are weak and falling apart and unraveling, that will 
motivate him to get even more engaged in the European space. We 
have to do just the opposite, we have to bolster deterrence, 
reassure our allies, and try to send a stronger signal to him 
about our collective resolve.
    Senator Kaine. Thank you for your candid----
    Oh, General Jones.
    General Jones. One other thing. We've had this discussion 
before, during the Bush administration, where the then-
Secretary of Defense wanted to pull troops out of Europe and--
because we could always send them back. That creates vacuums. 
Vacuums are filled by people who don't have your best interests 
at heart. I think, you know, one of my favorite sayings about 
our presence in the globe is, `` Virtual presence is actual 
absence.'' If you're actually absent, you're not influencing 
the--you're not--things are not going to go the way you want 
them to go.
    Senator Kaine. Thank you for your candid answers to my two 
questions.
    Mr. Chair.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for the report and for your 
testimony this morning.
    I want to begin by echoing Chairman McCain's comments and 
thanking you, General Jones, for your comments about what has 
happened at Camp Liberty. I think it's unconscionable, and I 
think it reflects on the United States, given the assurances 
that we have given. We should be doing more to address that 
situation. So, thank you for raising it.
    You all have all referenced Brexit and the potential impact 
of Brexit. But, none of you have really gone into any detail 
about what you think will happen as a result of England's 
vote--or Britain's vote on leaving the EU, and how that will 
affect NATO, its presence in NATO, and European security. So, 
could I ask you--Ambassador Burns, I'll ask you to go first, if 
you could talk a little bit more about what you see happening 
as a result of that vote. The--and also maybe I could ask you 
about the lessons that we should be taking away from what's 
happened there.
    Ambassador Burns. Thank you, Senator Shaheen. Three quick 
points.
    First, just reading the British press and talking to 
friends in Britain, it's not at all sure, of course, it's going 
to happen. We'll have to see what happens with the Labour Party 
and the Conservative Party and British public opinion. This may 
be answered in 2017 or 2018. Point one.
    Point two. But, if it does happen, I think it's an ominous 
development for the United States, in two respects. First is, a 
weakened, distracted, and potentially fractured, U.K. [United 
Kingdom], if the Act of Union comes apart, if Scotland leaves, 
if Northern Ireland's constitutional position is in question, 
then our strongest ally in NATO--and Britain is our strongest 
military partner and our strongest political partner--is not 
going to be there for us. That's going to make it more 
difficult for the United States, and will weaken NATO.
    Secondly, I really worry about the effect on the European 
Union, itself, because Britain was, and is, really our bridge 
to the European Union on strategic issues. Britain translates 
the United States to the European Union, and the EU back to us. 
It's a very important bridge. Without Britain's sensible, 
pragmatic, centrist voice--I can think of four or five 
instances in the last 15 or 20 years when the EU may have done 
something--whether it was the Clinton, Obama, or Bush 
administrations--that would have been vexing to us, really 
dissatisfying to us. So, without that role, we're going to need 
a stronger Germany, a stronger American link to Germany, and 
hopefully a stronger military power in Germany.
    So, I think it's bad news for the United States, if it 
happens.
    Senator Shaheen. General Jones, Ms. Smith, do either of you 
have anything you'd like to add to that?
    General Jones. Well, I would just say, on its surface, the 
effect of Brexit on NATO should be marginal. The U.K. will 
remain a special ally of the United States and a leader in 
NATO. One possible effect is a more coherent EU security 
policy, but we'll see. Our collective prosperity is critical to 
our collective security. Anything that weakens the bonds of 
that relationship concerns me, because it will eventually erode 
our strength.
    So, given the reality of Brexit, I think the United States 
should take steps to strengthen and reinforce the special 
relationship with the U.K. while maintaining strong ties to the 
EU. The United States should not be forced into choosing 
between the U.K. and the EU, and should use its diplomatic 
clout in Europe to ensure the divorce, if, in fact, it happens, 
doesn't destabilize Europe.
    I'd just simply add that, at the NATO-EU level, there are 
political difficulties. There have been for the last decade. 
There is some reason to think that there might be some 
accommodations. But, part of the problem that--part of the 
problems that we have with NATO now is--particularly in western 
European countries, there's a tendency want to put a--an EU 
mantle on their security challenges. I just don't think they 
can have it both ways. It's not affordable.
    Ms. Smith. I think my colleagues are exactly right. I'll 
just add one point. That is the question of defense spending 
inside the United Kingdom. Quite recently, they were at a point 
where they were conducting another strategic review looking at 
their defense budget, as you know, and the United States pushed 
very hard, along with a number of other allies, but especially 
here in Washington, to ensure that they would maintain that two 
percent target.
    I think, depending on how the situation unfolds, and 
depending on how bad the budgetary situation is inside the 
U.K., we could potentially see a situation where they look to 
the defense budget to try and find some additional resources. 
What we have to ensure is that that doesn't happen, that we 
need the U.K. to be part of the five that are now meeting that 
target, that hopefully will become more in the future. I would 
hate to lose them as the cornerstone of--in that small club of 
countries that are meeting that two percent target.
    Senator Shaheen. Thank you all very much.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of your for being here.
    If I could start--and I'll start with you, Ambassador. Do 
you know of any experts--military experts, even retired or 
current military experts--that, basically, are professing that 
we should leave NATO, that would be advising any presidential 
candidate? Do you know of anybody that's setting there saying 
this would be a good thing, for us to leave?
    Ambassador Burns. I don't know of any experts suggesting--
--
    [Laughter.]
    Ambassador Burns.--that we should leave NATO.
    Senator Manchin. But, there are some military--some retired 
military people or Active military people that would support 
that?
    Ambassador Burns. I'm not aware of any.
    Senator Manchin. You're not. Are any of you all aware? 
General, are you?
    General Jones. I'm not aware of any that I've talked to 
that advocate----
    Senator Manchin. So, we don't know where that advice would 
be coming--or where that counseling would be coming--that we 
should? Because I've been--I was at Wroclaw, at the Global 
Forum, and I saw the value of NATO. The thing I would--my next 
question--I'm going to follow up--Ms. Smith, do you know 
anybody that would be advocating that, that would have 
expertise?
    Ms. Smith. I don't.
    Senator Manchin. Okay. So, nobody. You all should know 
somebody, if they were, right? I would think so.
    My hardest thing was--is why we cannot--and there's no 
penalties that we place upon any NATO country that doesn't 
fulfill its obligation of a two percent--at least two percent. 
Some of the countries that can--when I look at Greece, all 
their problems, they're still committed to spending two 
percent. But--and I--and, I think, Ambassador, you said, about 
Germany, you're absolutely correct, everybody I spoke to at 
that Global Forum said, if Germany would take the lead, it 
would make such a difference in what would happen. Is there 
anything that we can do--the United States should do or could 
do--whether it's financing world global banks and all the 
different things that we have some strength in--could make them 
step to the plate? I mean, we just--we don't do anything.
    Ambassador Burns. Well, we have been fighting this battle--
--
    Senator Manchin. I know.
    Ambassador Burns.--for 40 or 50 years.
    Senator Manchin. Right.
    Ambassador Burns. I remember, the NATO minimum used to be 
three percent, under President Carter's administration. Now 
it's two percent. We've--it's gotten easier.
    I do think you're right, Senator Manchin, that Germany is 
the key country here. We don't know what's going to happen in 
the German elections in 2017. But, it was very interesting to 
be in Berlin ten days ago to see the German Foreign Minister 
make these egregious comments when he said that NATO exercises 
on NATO territory, the Baltics and Poland, were saber-rattling. 
Then to see Chancellor Merkel come out, three days later, and 
to say she supported the NATO exercises, and she supported a 
German effort to get to two percent. I do think a lot will 
hinge on what kind of government is put together, and who leads 
it, in Germany in 2017. The French have elections in 2017. 
They're the key continental countries. If they move towards two 
percent, then others will move with them. If they don't, 
there's an excuse.
    Senator Manchin. What I was--I've always thought that, 
basically, someone has to be the bad guy, someone has to be the 
boogeyman, if you will. If--getting into this market, this 
trading market and all the trading things that we do, there 
should be some sort of a penalty. You've got to give them a 
reason to go back to their electorate and says, ``We have to do 
this, because, for us to have access to this market, this is 
what we have to do.'' Then really be strict about that. We can 
get people step to the plate, because I think NATO is so 
important to us and our success and our defense of our country. 
But, unless they're willing to step to the plate, the American 
electorate is going to get pretty tired of carrying the load 
we've been carrying for 40 or 50 years.
    I would follow up with one other thing. I just saw where 
in--Putin and Obama discussing military coordination in Syria. 
I don't know if you saw that article yet. That they're 
basically--now there's coordination. It said that Putin 
initiated that with President Obama. Do you believe that to be 
a positive movement? Concrete? That something can be made out 
of that?
    General Jones. Well, if I recall correctly, the United 
States has tried to achieve something like that from day one. I 
mean, obviously, deconflicting the airspace and reducing the 
possibility of----
    Senator Manchin. What do you think brought it upon--I mean, 
I've read the article, here, and it's----
    General Jones. Yeah. I--but, obviously, you know, if we--as 
you can find some accommodation, that's useful. But, I'm not 
terribly hopeful.
    Senator Manchin. Ms. Smith?
    Ms. Smith. I think it's important--we both have troops on 
the ground--I think it's important to deconflict and ensure 
that our troops are not running into each other or endangering 
each other's lives. That said, what we have to be careful about 
is that Putin will make certain assumptions that this is 
transactional and that, by cooperating on Syria, he can get a 
pass on Ukraine. That cannot be part of our message. I know 
that the administration has been adamant in relaying that to 
the Russians, but I think we have to push back harder and drive 
that message home, both in private and at any public venue we 
can, so that they understand clearly that we will not trade any 
potential cooperation in a place like Syria for letting go on 
the pressure we're exerting on Russia over their actions inside 
Ukraine.
    Senator Manchin. One thing I'll comment on is, our dear 
friends in Canada, which--Canada basically has been sliding by 
with Americans carrying them. They're at one percent, been at 
one percent for quite some time. Thirty-five States. It's the 
largest trading partner, with 35 States out of the 50 in the 
United States. That's one area that we can make a difference in 
extremely quickly. Do you agree, Ambassador?
    Ambassador Burns. I do. Canada has led on refugees, but 
they are deficient on defense spending, and we ought to be 
pushing the Canadians and the new Prime Minister towards a much 
healthier defense budget.
    Senator Manchin. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    When Putin moved on Crimea and used as an excuse the 
Russian-speaking population, it was speculated at the time 
that, since there's a large percentage of Russian-speaking 
population in the three Baltic states, especially Estonia, that 
he might try the same thing. What have you seen since Crimea 
that would indicate that he is, or is not, doing that?
    Ambassador Burns. Since Crimea, President Obama went to 
Tallinn, in September 2014, about four months later, and said 
that the security of Tallinn was equal to us, as important as 
is Paris or Berlin or London. That was an important statement. 
Now we have to follow it up with actions, thus permanent 
stationing of troops in Estonia, Latvia, Lithuania. Putin has 
not tried to cross the Narva River into Estonia. But, I would 
think that he would be tempted, by a hybrid offensive, to try 
to divide the Estonians from within, to try to play on the 
sympathies of the ethnic Russian population, about a quarter of 
the population in Estonia, even more in Latvia. That's what 
we've got to guard against.
    We also know that Putin has been an aggressor in the 
cyberdomain. What NATO needs to do is build a much greater 
capacity to defend itself in the cyber realm and then to decide 
when a cyberattack does, or does not, trip article 5. This is a 
very difficult problem to look at, but we've got to look at. 
So, this is a very consequential summit coming up in Warsaw.
    Senator Nelson. Couple of years ago, when I was in 
Lithuania, at the time, we were rotating in United States 
military forces into the three Baltics. Is that more on a 
permanent basis now?
    General Jones. We--the alliance is considering permanent 
bases of NATO forces in the Baltics. We have--we support that 
in this report. Back in 2004, 2005, and 2006, we had 
deployments of F-16s from different countries--not just U.S., 
but different countries--in the Baltic states. The Russians 
have consistently pushed the envelope on airspace in the Baltic 
states. They continue to do so very aggressively. So, I don't 
know if that's a--an omen of things to come, but I do believe 
that the Russian actions over the last several years should not 
go unanswered. I think putting permanent troops there is a good 
idea.
    Senator Nelson. General, from a standpoint of military 
warfare, if Russia really decided to move on the three Baltics, 
it would be very hard, because of their geographical position. 
So, is our deterrence simply that they know we would engage 
them in a fight, and that could lead to overall worldwide 
implications? Speak to the deterrence, please.
    General Jones. Well, Senator, you're touching on a very 
important aspect of the alliance, and that's article 5. I think 
one of the things that any potential adversary needs to hear 
when confronting NATO is that article 5 is inviolate. I think 
it needs some shoring up, frankly. I think the United States 
President is the one who's probably most qualified and best 
suited to shore up whatever--to make sure there's no 
misunderstanding that 28 sovereign countries support article 5. 
That has to be heard in Moscow, and in any other place--any 
other capital, very, very clearly.
    Senator Nelson. I agree with you. Some of the NATO alliance 
has been less than eager to indicate that, under all 
circumstances, they would support article 5. So, how do you get 
them to get some spine, some backbone?
    General Jones. Well, I--in my view, not to repeat myself, 
but I think this is--if there is weakness--and I agree with you 
that there is at least some weakness--but, that has to be 
shored up critically, because the consequences for not doing 
that could be catastrophic.
    Senator Nelson. Ambassador, how?
    Ambassador Burns. It does require American leadership. 
Right now, you have uncertainty in many European countries 
about their willingness to stand up to the Russians. We have a 
weakened U.K. So, for President Obama and his successor, that 
leadership is desired by the Europeans, and it's essential on 
the question that General Jones just answered. We have only 
invoked article 5, as you well know, once in our history. I was 
the American Ambassador at the time. It was the day after 9/11. 
The Europeans came to our defense. It was tremendously 
encouraging.
    But, I must say, we don't see the same European unity when 
we talk about problems of territorial aggression in the eastern 
part of Europe, which gets to another point that General Jones 
raised earlier. We've got to be--the Americans--the champions 
of the east Europeans, because sometimes we don't sense that 
the west Europeans have the same degree of backbone that 
President Clinton, President Bush, and President Obama have had 
in standing up for them.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    I want to continue, General Jones, along this line that 
Senator Nelson brought up of deterrence. In addition to article 
5, obviously historically we have also relied very heavily on 
the nuclear deterrent to continue that line between eastern 
Europe and Russia's influence. Russia has sort of a new 
doctrine these days, that--this ``escalate to de-escalate'' 
approach, which I think we all find very concerning. Could you 
talk a little bit about how important it is that we continue 
ongoing modernization in that area to ensure that those 
assigned to the NATO mission are survivable and well exercised 
and ready to counter the Russian nuclear doctrine? 
Specifically, talk a little bit about your thoughts on this 
evolution to ``escalate to de-escalate.''
    General Jones. Senator, I think that the situation is--
has--that has developed is very worrisome, and it--in terms of 
Russia. While I do think that dialogue is important and should 
be maintained, I think the--what has to be shored up is the 
deterrence portfolio. We can do that in a number of ways. Some 
of the things, we're already doing. The United States is 
contributing monetarily to the alliance, we're contributing 
rotational troops, we have permanent--permanently-based troops, 
in a significant amount. We have the opportunity, here at the 
summit, for the President to make the case that the alliance is 
viable and is moving in the right direction for the--to meet 
the threats of the 21st century: missile defense, nuclear 
deterrent, reinvigorating the concept of article 5 in a serious 
discussion, given what's going on in the world. It's hard to 
understand that members of the alliance would not sign up to 
that. But, I think it's going to have to be very direct 
involvement at the presidential/head-of-state level to make 
sure that any weakness is shored up very quickly. This 
absolutely has to be done. Mr.----
    Senator Heinrich. Ambassador----
    General Jones.--Mr. Putin has shown that he is an 
opportunist, and that he will take advantage of perceived 
weakness.
    Senator Heinrich. Yeah.
    General Jones. You know, we've been through this in the 
Cold War, so a lot of this is, you know, dusting off the 
playbook.
    Senator Heinrich. Right.
    General Jones. But, I also think that we should lead the 
alliance into more of a transformative doctrine of preventing 
future conflicts by acting to prevent those future conflicts 
and by helping others in different continents who are 
struggling to achieve the same kind of freedoms that we've 
enjoyed--developing economies, helping rule of law, teaching 
how militaries are subordinate to civilian leadership. All of 
those things, an alliance should be able to do, and it's a lot 
cheaper than having to fight in another war.
    Senator Heinrich. Ambassador Burns or Ms. Smith, do you 
have anything to add from that perspective?
    Ambassador Burns. Senator, I'd just say that transparency 
with the Russians is going to be really important to limit the 
possibility of an accidental conflict.
    Second, the next administration is going to have to 
decide--in addition to strategic deterrence, we do need an 
effective--a more effective channel into the Russian Government 
on nuclear issues----
    Senator Heinrich. Right.
    Ambassador Burns.--and conventional-force issues in Europe. 
The Russians are walking away from all the agreements that we 
negotiated from the '80s----
    Senator Heinrich. Right.
    Ambassador Burns.--to after 9/11. It's a big concern. 
Getting to that is going to be an important, I think, early 
initiative of a new administration.
    Ms. Smith. I would just add that, before Crimea, I think 
the alliance, years prior, was making certain assumptions about 
the neighborhood--we all were--that Europe was essentially 
whole, free, and at peace. NATO nuclear doctrine really took a 
backseat in many ways, and we lost the muscle movements. We--
there was atrophy.
    Now what you'll see with the summit is that NATO's 
exercising those muscles again. It's meeting at a higher level 
inside the alliance on these issues. It's going to reaffirm 
where NATO nuclear doctrine sits in a broader deterrence 
policy. I don't think there'll be any major announcements tied 
to nuclear weapons, but I think the signal here will be, to 
Moscow, that NATO is in a process of reviewing where Russia 
stands with its own nuclear strategy, and is taking a fresh 
look at things like DCA, again, doctrine policy, writ large.
    Senator Heinrich. Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, each of you, for giving us the benefit of your 
expertise and experience. I've been following it as I move 
between different committee meetings. You know how that works. 
I think that the focus on NATO is very well justified.
    I would like to focus on what I think is a major threat to 
NATO's stability and effectiveness, even though it doesn't come 
directly from Russia. We're in the midst of the biggest refugee 
crisis in our lifetimes, certainly since World War II. Millions 
of people are continuing to flee across borders, and there is 
enduring chaos and violence in Syria and the wider Middle East, 
which, in turn, threatens the stability of Europe and, in my 
view, potentially the stability of NATO.
    So, I'd like to ask each of you, How does the refugee 
crisis impact our ability to respond to Russian aggression and 
to maintain the strength and stability of NATO? Do you see it 
as a threat? If so, what should we be doing about it? Because, 
ultimately, if it is a threat to the effectiveness of NATO, 
it's something that we'll have to address before it reaches 
crisis proportions.
    Maybe, Ms. Smith, if we could begin with you and go down 
the table.
    Ms. Smith. Sure. Well, thank you, Senator. Thank you for 
raising this issue.
    The refugee crisis in Europe is transformative. It is 
fundamentally going to alter the face of Europe for the future. 
It will alter the ways in which we work with Europe. It, in 
many ways, in the short term, will lead to a distracted Europe 
and a divided Europe, because they have such wide--a huge array 
of differences on how to handle this crisis.
    The other bad news is, it's creating a tremendous amount of 
friction with Turkey, one of our NATO allies, between Turkey 
and the European Union or other European countries. They have, 
as you know, managed to agree on this migration deal, and 
they've managed to slow some of the flow from Turkey into 
Greece. But, there are signs that this deal could start to fall 
apart and the tensions between Ankara and Brussels is 
considerable, and not good news for any of us.
    In terms of how Putin looks at it, I mean, Putin--I think 
General Breedlove used the term ``weaponization of refugees"--I 
mean, Putin has certainly realized that by putting all this 
pressure on Aleppo, he is potentially sending anywhere from 
another 500,000 to million refugees into Europe. He has opened 
up some of the border crossings and made it easier for refugees 
also to come into Europe through Finland, which is deeply 
troubling to our friends in Helsinki. So, he is very crafty in 
his use of this crisis to yield some sort of an advantage and 
to see how he might continue to weaken the European project.
    So, in my mind, this is bad news all around. I think we 
have to see--since we're talking about NATO today, we have to 
think about ways in which NATO can play a more constructive 
role. NATO's already contributing to the mission in the Aegean. 
There's some talk about opening up that mission now to cover 
the waters between Libya and Italy. I think that would be wise. 
Not without controversy. But, I think we should challenge the 
alliance to think more creatively.
    They're taking a fresh look at this Operation Endeavor, one 
of the maritime missions in the Mediterranean, and seeing how 
they might reshape that mission to be more helpful to deal with 
the refugee crisis. So, I think there's more we can do.
    Certainly, I'm in a position--I believe that the United 
States should do more, and I think we need to figure out how we 
can be a stronger supporter to our European allies as they deal 
with this monumental crisis.
    Senator Blumenthal. Thank you. That's a great answer.
    Ambassador Burns?
    Ambassador Burns. Senator, I agree with Julianne in all 
respects. I would add this. The source of the problem, of 
course, is Syria and Iraq--12 million Syrian homeless in a 
population of 22.4 million. So, at some point, we're going to 
have to use our influence with the Russians and the Syrian 
Government to get U.N. humanitarian aid corridors into those 
refugee areas. Number one.
    Number two. I don't think we should foreclose the 
possibility of establishing no-flight zones and safe havens on 
the ground in northern Syria to protect the refugees. Turkey 
wants to work on that with us. Many of the Sunni Arab states 
want to work on it with us. Extremely complicated, dangerous. 
You can't--you have to plan this in a very careful way. But, if 
we don't do that, the refugee crisis could worsen, and 
therefore, the resulting impact on surrounding states--Iraq, 
Jordan, Lebanon, Israel possibly, certainly Europe--I think we 
have to face that question at some point.
    Senator Blumenthal. General?
    General Jones. Thank you, sir.
    I think Julianne said it correctly, it's a transformative 
threat. Right now in Europe, it's mostly handled by the 
European Union. But, it could easily, I think, become a NATO 
problem, simply because of the assets NATO can bring to the 
table.
    But, I think that refugees from the east, as serious as it 
is, could actually be somewhat minor if the African continent 
is subverted by radicalism, organized crime, and corruption at 
the national levels. Refugees are caused by a loss of hope. 
Where there is no hope, people start moving into the areas 
where there is hope. Europe is the natural attraction for 
both--from both the east and the south. I think that this is a 
very serious problem. I think we should collectively address 
the conditions in different countries to make sure that 
radicalism doesn't gain the foothold that it's trying to gain, 
and that we continue to hold high the example of good 
governance and rule of law so that--you know, particularly in 
Africa, so the countries that are coming up for elections 
actually live up to their constitutions and have changes of 
leadership. There are some big elections coming up in Africa 
this year, and there are quite a few leaders who don't appear 
to want to step down when their time comes. That's not a good 
trend.
    So, I think there's a lot of things that we could work on 
to stem a future flow that could even be worse than the one 
we're seeing now.
    Senator Blumenthal. I thank all of you for these very 
important insights.
    I find this prospect of the continued refugee crisis and 
the equally alarming prospect that our adversaries will be 
crafty and ingenious--to use Ms. Smith's word, ``crafty"--it 
doesn't take much craftiness to exploit this problem, but they 
will be, certainly, ingenious and exploitive.
    So, thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    General Jones, just to follow up on your final comment, I 
completely agree with you. I would add climate change to some 
of those factors, because, to the extent that the equatorial 
regions of the world suffer 120-degree heat, droughts, famine, 
that's going to motivate. I'm just afraid the refugee crisis 
we're seeing now is a precursor to a much more serious one 
caused by those regions essentially becoming uninhabitable.
    Ambassador Burns, you said something very interesting. I 
think I picked it up. You said--talking about Brexit, you said 
``if it happens.'' Do you have information or thoughts that 
there may be--that the British may reverse this decision? 
Briefly?
    Ambassador Burns. I have no inside information, except to 
say I think the prevailing opinion now, two weeks--nearly two 
weeks later, is that there's so much uncertainty about British 
politics--Corbyn is--the Labour Party leader, Corbyn, is on the 
ropes. He's been disavowed by his members of Parliament. We'll 
see who wins the Conservative Party race. It could be Theresa 
May. She says there should be an orderly process. But, the 
British don't have to actually start the clock on their article 
50 negotiations with the EU anytime this year. They can choose 
the time that they do that. There has been huge regret in the 
British public. You look at the capital----
    Senator King. Do you think it gets to the--my question is, 
though, Is there a political possibility of a reversal of the 
decision?
    Ambassador Burns. Some people, some political observers in 
London, believe that it's possible that, in 2017, a new 
government could engineer a second referendum. So, I don't 
think it's inevitable that they leave. It may be probable, but 
not inevitable.
    Senator King. Thank you.
    Changing the subject back--getting back to NATO, I was with 
a group of Intelligence Committee folks in--we were in Paris 
the morning of the Brussels attack, meeting with French 
counterterrorism officials. The big lesson that we took away 
from that was the dreadful lack of coordination among European 
intelligence agencies, and their lack of--their suspicion, 
their lack of sharing. We then went on to Berlin. Similar 
situation there.
    Could NATO serve as a sort of neutral repository of 
intelligence information that could then be shared? It--there--
it just--these countries with these ancient enmities aren't 
going to be very cooperative with one another. Is there a 
Interpol or NATO--could NATO serve this function of a 
repository and then sharing--a kind of clearinghouse of 
intelligence information to bypass these silos that they now 
are in? Even--in Brussel--in Belgium, they have separate 
intelligence agencies within the country that don't talk to 
each other. I'm--any one of you, but--Ambassador Burns, 
perhaps?
    Ambassador Burns. Senator, I guess I'm skeptical. I think 
that NATO has never played that role in the past. There has 
been--there is--it's a forum to discuss issues that are outside 
the military and political realm, but we've never had NATO be 
the central repository. It would take a lot of work. All the 
countries would have to agree. Again, consensus is so difficult 
to reach, at 28. I think it's probably more likely that you're 
going to--you've seen, as a reaction to these attacks, greater 
French-German coordination, for instance; greater French-
Belgian coordination. They've had to, because attacks have been 
transnational, across the borders. But, I'm not sure that NATO 
can play that particular role.
    Senator King. The problem is, if those countries aren't 
fully cooperative with one another, then they're only as strong 
as the weakest link, because you can drive from Italy to 
Finland.
    Let me just change the subject again. The challenge with 
the Russians is--I think there are two--one is, you have--we've 
talked about how they take advantage of any weakness. The best 
description of Russian foreign policy I ever heard was that 
they were like a hotel thief who goes down the hall, trying 
every door until they find one that's open, and then they go 
in. That's really what you were saying about--any show of 
weakness, and they're going to try to find a way in.
    On the other hand, they have a historic paranoia about the 
West. Frederick the Great, going back--you read Putin's 
speeches, and encroachment and that everybody's against them. 
How do we find the right balance between being protective, vis-
a-vis NATO, and being provocative? In other words, adding NATO 
states that the Russians would view as a historic threat. Do 
you see the question?
    General Jones, your thoughts on that question?
    General Jones. Well, during our time at NATO, Ambassador 
Burns and I, we were actually--they were at a good time, when 
it looked like the NATO Russia Council was doing things. Under 
President Medvedev, during the first few years of the 
administration, we signed the START [Strategic Arms Reduction 
Treaty] Treaty. I actually really believed that we had turned 
the corner and that Russia had decided to be part of the Euro-
Atlantic arc and not outside of it. But, one man changed that. 
I think that's to be deplored, frankly.
    So, I don't know that that's going to change anytime soon. 
We have to recognize the situation for what it is. It is 
threatening. It is something that the alliance has to take 
under--take into account, and the 28 nations have to make sure 
that they send the message that some of this behavior is 
unacceptable, particularly if you want to avoid more problems 
in Georgia, in Moldova, and other places like that, that are 
extremely--feel extremely threatened for--by their--with regard 
to their future.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses.
    Before we close, there's a story that's been banging around 
in the last couple of days, ``Obama and Putin Speak by Phone, 
Ready to Increase Syria Coordination.'' Kremlin said, in a 
statement, that Putin had used the call to urge Obama to aid 
the separation of the, quote, ``moderate opposition in Syria 
from the Nusra Front and other extremist groups.'' Who's been 
bombing the moderates? Is it--this stuff, you can't make up. 
It's staggering. It--now we're going to have a relationship 
with the Russians, and they're urging us to separate the 
moderate opposition. I wonder how many of the moderates have 
been killed by Russian aircraft and bombing. I just--I--it's 
unbelievable that we're now trying to have an accommodation 
with the country that has killed so many of those who we had 
armed and trained and equipped, and who were fighting against 
Bashar Assad, who is the one who has killed 250-, 300-, 
400,000--I don't know, it depends on whose estimates you have--
and now our only enemy is ISIS. The--and the alliance between 
the Iranians, Vladimir Putin, and, of course, Bashar Assad is--
been solidified.
    I wonder if anyone on the panel believes that, as President 
Obama said, it's not a matter of ``whether,'' but ``when'' 
Bashar Assad will leave power.
    General Jones?
    General Jones. I'd--my personal view is, I don't see it 
happening in the near future.
    Ambassador Burns. He appears to be expanding his power base 
in Syria. We should be skeptical of any arrangement with the 
Russians when the Russians don't produce a diplomatic path 
that's real. Because the Syrian Government won't agree to it. 
We ought to be building up our support for the moderate rebels, 
our military and political support, as a counterweight. So, I 
would be very skeptical of this arrangement.
    Chairman McCain. Ms. Smith?
    Ms. Smith. I think it's shameful that Putin tried to 
persuade everyone that he was withdrawing from the conflict in 
Syria. He's not doing that at all. He's still there. He's still 
targeting the forces we support, and playing a very unhelpful 
role. I think we need to call him out on that strategy and, 
basically, acknowledge that he is not contributing to the 
future stability of the country, but, in fact, quite the 
contrary, continuing to contribute to its demise.
    Chairman McCain. I want to thank the three of you.
    I also want to thank the Atlantic Council for the good work 
that they do.
    All three of you have had great service to the Nation. I 
hope that--and I believe that my colleagues have gained further 
insight into the challenges we face, which I think we can draw 
the conclusion are almost unprecedented since the end of the 
Cold War, which makes your service and expertise and input all 
the more important to the United States Congress.
    Jack?
    Senator Reed. Mr. Chairman, I simply want to second your 
comments, thank the panel for their work, in terms of the 
report and their extraordinarily insightful testimony today.
    Thank you very much.
    Chairman McCain. This hearing is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
